Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




        REVIEW OF OUTPATIENT
         SURGERIES BILLED BY
           HAZEL HAWKINS
         MEMORIAL HOSPITAL


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Lori A. Ahlstrand
                                               Regional Inspector General
                                                   for Audit Services

                                                       August 2014
                                                      A-09-13-02053
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 Hazel Hawkins Memorial Hospital did not comply with Medicare requirements for
 billing outpatient surgeries, resulting in overpayments of approximately $366,000 over
 more than 2 years.

WHY WE DID THIS REVIEW

For calendar year (CY) 2012, Medicare paid hospitals $148 billion, which represented 43 percent
of all fee-for-service payments; therefore, the Office of Inspector General must provide continual
and adequate oversight of Medicare payments to hospitals. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims for outpatient surgeries that
were at risk for noncompliance with Medicare billing requirements because they were billed with
units of service greater than one, indicating that the surgeries may have been performed multiple
times.

Our objective was to determine whether Hazel Hawkins Memorial Hospital (the Hospital)
complied with Medicare requirements for billing outpatient surgeries on selected claims.

BACKGROUND

The Centers for Medicare & Medicaid Services pays for hospital outpatient services on a
rate-per-service basis that varies according to the assigned ambulatory payment classification.
The Medicare Claims Processing Manual (the Manual) requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No.
100-04, chapter 1, § 80.3.2.2). In addition, the Manual states: “The definition of service units …
is the number of times the service or procedure being reported was performed” (chapter 4,
§ 20.4).

The Hospital is an acute-care hospital located in Hollister, California. Medicare paid the
Hospital approximately $6.3 million for 37,092 outpatient claims for services provided to
beneficiaries during CYs 2011 and 2012.

Our audit covered $650,217 in Medicare payments to the Hospital for 141 outpatient claims for
surgeries billed with units greater than 1. Initially, we judgmentally selected 92 claims as
potentially at risk for billing errors. On the basis of our finding, the Hospital identified an
additional 49 claims for our review. Of the 141 claims, 134 claims had dates of service in
CYs 2011 or 2012, and 7 claims had dates of service in CY 2013.

WHAT WE FOUND

The Hospital did not comply with Medicare billing requirements for all 141 of the outpatient
surgery claims that we reviewed, resulting in overpayments of $366,054. Specifically, the
Hospital billed Medicare with an incorrect number of units for cataract and other surgeries.
These errors occurred because the Hospital did not have adequate controls to prevent the
incorrect billing of Medicare for service units on outpatient surgery claims.


Outpatient Surgeries Billed by Hazel Hawkins Memorial Hospital (A-09-13-02053)                    i
WHAT WE RECOMMEND

We recommend that the Hospital:

    •   refund to the Medicare contractor $366,054 in overpayments for the 141 incorrectly
        billed outpatient claims and

    •   strengthen controls to ensure full compliance with Medicare requirements for billing
        outpatient surgeries.

HOSPITAL COMMENTS

In written comments on our draft report, the Hospital concurred with our finding and provided
information on actions that it had taken to address our recommendations.




Outpatient Surgeries Billed by Hazel Hawkins Memorial Hospital (A-09-13-02053)                  ii
                                                     TABLE OF CONTENTS

INTRODUCTION .............................................................................................................................1

           Why We Did This Review .....................................................................................................1

           Objective ................................................................................................................................1

           Background ............................................................................................................................1
                 The Medicare Program ..............................................................................................1
                 Hospital Outpatient Prospective Payment System .....................................................1
                 Medicare Requirements for Hospital Claims and Payments .....................................1
                 Hazel Hawkins Memorial Hospital ............................................................................2

           How We Conducted This Review..........................................................................................2

FINDING ...........................................................................................................................................2

           The Hospital Billed the Incorrect Number of Units for Outpatient Surgeries .......................3

           The Hospital Did Not Have Adequate Controls To Prevent Incorrect Billing ......................3

RECOMMENDATIONS ...................................................................................................................4

HOSPITAL COMMENTS ................................................................................................................4

APPENDIXES

           A: AUDIT SCOPE AND METHODOLOGY ......................................................................5

           B: HOSPITAL COMMENTS ...............................................................................................7




Outpatient Surgeries Billed by Hazel Hawkins Memorial Hospital (A-09-13-02053)                                                                   iii
                                             INTRODUCTION

WHY WE DID THIS REVIEW

For calendar year (CY) 2012, Medicare paid hospitals $148 billion, which represented 43 percent
of all fee-for-service payments; therefore, the Office of Inspector General must provide continual
and adequate oversight of Medicare payments to hospitals. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims for outpatient surgeries that
were at risk for noncompliance with Medicare billing requirements because they were billed with
units of service greater than one, indicating that the surgeries may have been performed multiple
times.

OBJECTIVE

Our objective was to determine whether Hazel Hawkins Memorial Hospital (the Hospital)
complied with Medicare requirements for billing outpatient surgeries on selected claims.

BACKGROUND

The Medicare Program

Medicare Part B provides supplementary medical insurance for medical and other health
services, including coverage of hospital outpatient services. The Centers for Medicare &
Medicaid Services (CMS) administers the Medicare program.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS), which is effective for
services furnished on or after August 1, 2000, for hospital outpatient services. Under the OPPS,
Medicare pays for hospital outpatient services on a rate-per-service basis that varies according to
the assigned ambulatory payment classification (APC). CMS uses Healthcare Common
Procedure Coding System (HCPCS) codes and descriptors to identify and group the services
within each APC group. 1 All services and items within an APC group are comparable clinically
and require comparable resources.

Medicare Requirements for Hospital Claims and Payments

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Social Security Act (the Act), § 1862(a)(1)(A)). In addition, payments may
not be made to any provider of services or other person without information necessary to
determine the amount due the provider (the Act, § 1833(e)).

1
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


Outpatient Surgeries Billed by Hazel Hawkins Memorial Hospital (A-09-13-02053)                                      1
Federal regulations state that the provider must furnish to the Medicare contractor sufficient
information to determine whether payment is due and the amount of the payment (42 CFR
§ 424.5(a)(6)).

The Medicare Claims Processing Manual (the Manual) requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No.
100-04, chapter 1, § 80.3.2.2). The Manual states that providers must use HCPCS codes for
most outpatient services (chapter 23, § 20.3).

Hazel Hawkins Memorial Hospital

The Hospital is an acute-care hospital located in Hollister, California. Medicare paid the
Hospital approximately $6.3 million for 37,092 outpatient claims for services provided to
beneficiaries during CYs 2011 and 2012.

HOW WE CONDUCTED THIS REVIEW

Our audit covered $650,217 in Medicare payments to the Hospital for 141 outpatient claims for
surgeries billed with units greater than 1. Initially, we judgmentally selected 92 claims as
potentially at risk for billing errors. On the basis of our finding, the Hospital identified an
additional 49 claims for our review. Of the 141 claims, 134 claims had dates of service in
CYs 2011 or 2012, and 7 claims had dates of service in CY 2013.

We limited our review to the line items on the 141 claims for which the Hospital billed
outpatient surgeries. We evaluated compliance with selected billing requirements but did not use
medical review to determine whether the services were medically necessary. This report does
not represent an overall assessment of all claims submitted by the Hospital for Medicare
reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details of our audit scope and methodology.

                                                FINDING

The Hospital did not comply with Medicare billing requirements for all 141 of the outpatient
surgery claims that we reviewed, resulting in overpayments of $366,054. Specifically, the
Hospital billed Medicare with an incorrect number of units for cataract and other surgeries.
These errors occurred because the Hospital did not have adequate controls to prevent the
incorrect billing of Medicare for service units on outpatient surgery claims.




Outpatient Surgeries Billed by Hazel Hawkins Memorial Hospital (A-09-13-02053)                    2
THE HOSPITAL BILLED THE INCORRECT NUMBER OF UNITS FOR
OUTPATIENT SURGERIES

Medicare payments may not be made to any provider of services or other person without
information necessary to determine the amount due the provider (the Act, § 1833(e)). The
Manual states: “In order to be processed correctly and promptly, a bill must be completed
accurately” (chapter 1, § 80.3.2.2). In addition, the Manual states: “The definition of service
units … is the number of times the service or procedure being reported was performed”
(chapter 4, § 20.4).

For all 141 claims that we reviewed, the Hospital billed Medicare with an incorrect number of
units for outpatient surgeries: 2

     •   For 108 claims, the Hospital billed cataract surgeries with multiple units per beneficiary
         visit.

     •   For 33 claims, the Hospital billed other surgical procedures, such as joint surgeries, with
         multiple units per beneficiary visit.

However, in each case, only one unit of service was performed. As a result of these errors, the
Hospital received overpayments of $366,054. 3

THE HOSPITAL DID NOT HAVE ADEQUATE CONTROLS TO PREVENT
INCORRECT BILLING

The billing errors occurred because the Hospital did not have adequate controls to prevent the
incorrect billing of Medicare for service units on outpatient surgery claims. Specifically, the
Hospital stated that it relied on edits in its claims processing system to identify potential billing
errors for review. The claims processing system lacked edits to identify outpatient surgeries
billed with the incorrect number of units. As a result, the Hospital submitted these claims to
Medicare for processing without review and revision by the billing department.




2
 For one claim, in addition to billing the incorrect number of units, the Hospital billed for an outpatient surgery
when the beneficiary was not entitled to outpatient benefits. The incorrect billing resulted in an overpayment of
$2,457.
3
  Initially, we judgmentally selected 92 claims for review and identified overpayments of $132,582. On the basis of
our finding, the Hospital identified an additional 49 claims for our review. We reviewed the 49 claims and
identified additional overpayments of $233,472.


Outpatient Surgeries Billed by Hazel Hawkins Memorial Hospital (A-09-13-02053)                                        3
                                       RECOMMENDATIONS

We recommend that the Hospital:

    •   refund to the Medicare contractor $366,054 in overpayments for the 141 incorrectly
        billed outpatient claims and

    •   strengthen controls to ensure full compliance with Medicare requirements for billing
        outpatient surgeries.

                                      HOSPITAL COMMENTS

In written comments on our draft report, the Hospital concurred with our finding and provided
information on actions that it had taken to address our recommendations. The Hospital’s
comments are included in their entirety as Appendix B.




Outpatient Surgeries Billed by Hazel Hawkins Memorial Hospital (A-09-13-02053)                  4
                     APPENDIX A: AUDIT SCOPE AND METHODOLOGY


SCOPE

Our audit covered $650,217 in Medicare payments to the Hospital for 141 outpatient claims for
surgeries billed with units greater than 1. Initially, we judgmentally selected 92 claims as
potentially at risk for billing errors. On the basis of our finding, the Hospital identified an
additional 49 claims for our review. Of the 141 claims, 134 claims had dates of service in CYs
2011 or 2012, and 7 claims had dates of service in CY 2013.

We limited our review to the line items on the 141 claims for which the Hospital billed
outpatient surgeries. We evaluated compliance with selected billing requirements but did not use
medical review to determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the line items for
outpatient surgeries because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from CMS’s National Claims History file, but
we did not assess the completeness of the file.

This report does not represent an overall assessment of all claims submitted by the Hospital for
Medicare reimbursement.

We conducted our fieldwork from February 2013 to January 2014.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   extracted the Hospital’s outpatient paid claim data from CMS’s National Claims History
        file for CYs 2011 and 2012;

    •   used computer matching, data mining, and data analysis techniques to identify claims
        potentially at risk for noncompliance with selected Medicare billing requirements;

    •   judgmentally selected for detailed review 141 outpatient claims for surgeries billed with
        units greater than 1, consisting of 92 claims that we initially selected as potentially at risk
        for billing errors and 49 claims that the Hospital identified on the basis of our finding; 4

    •   reviewed available data from CMS’s Common Working File for the selected claims to
        determine whether the claims had been canceled or adjusted;
4
 The 92 claims that we initially selected had dates of service in CYs 2011 and 2012. The 49 claims that the
Hospital identified had dates of service in CYs 2011, 2012, and 2013.


Outpatient Surgeries Billed by Hazel Hawkins Memorial Hospital (A-09-13-02053)                                5
    •   reviewed the itemized bills and medical record documentation provided by the Hospital
        to support the selected claims;

    •   requested that the Hospital conduct its own review of the selected claims to determine
        whether the services were billed correctly;

    •   reviewed the Hospital’s procedures for assigning HCPCS codes and submitting Medicare
        claims;

    •   discussed the incorrectly billed claims with Hospital officials to determine the underlying
        causes of noncompliance with Medicare requirements;

    •   calculated the correct payments for all 141 claims; and

    •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Outpatient Surgeries Billed by Hazel Hawkins Memorial Hospital (A-09-13-02053)                    6
                                       APPENDIX B: HOSPIT AL COMMENTS 





                                                San Benito Health Care District
                                                A Public Agency
                                                911 Sunset Drive.
                                                Hollister, CA 95023-56!;15
          MEMORIAL HOSPiTAL 

       SKILLED NU~ING FACIUTIES 
               (831) 637-5711
         HOME HEALTH AGENCY 

      Son'Benito Health Curo Dlstdct




               FROM: 	 Kristen templeton
                       Director of Patient Accounting
                       Hazel Hawkfns Memorial Hospital
                       911 Sunset Drive
                       Hollister, CA 95023

               TO: 	    Lori A Ahlstrand
                        Regional Inspector General for.Audit services
                        Office of Audit Services, Region IX
                        90 - 7m Street, Suite 3:-650
                        San Francisco, CA 94103



               RE: Revl~w of Outpatient Surgeries Billed ·by Hazel Hawkins Memorial Hospital
                   Report Number: A-09.-13-02053.

               Lori ~hlstrand:

               This is in response'to you r letter dated June 17, 2014 pertaining to the draft report titled Review of
               Outpatient Surgeries Billed by Hazel Hawkins Memorial Hospital.

               Summarv of Findings: 	                                         .·
               The OIG audited 9Z claims with possible billing errors of units on s4rgery claims. Hazel Hawkins
               Memo rial Hospital identified an additional49 claims with possible billing error of units·on surgery
               claims. Out of the total141 o~patient surgery the hospital concu rs that all outpatient surgeries were
               billed with the incorrect units. of service. 	                                           .

               Recom me ndati on #1 :

               The hospital refund Medicare $~66,05.4.00 in over payments for the 141 outpatient claims incorrectly
               billed. Hazel Hawkins Memorial Hospital has already rebilled Medicare the corrected claim and
               Medicare h·as recouped all of the $366,054.00 owed to them.                                  ·




                                       We bring you... Health, Compassion & Innovation




OulpaJient Surgeries Billed by Hazel Hawkins Memorial Hospital (A-09-13-02053)                                           7
             Recommendation #2:

             Hazel Hawkins Memorial Hospital strengthen controls to ensure full compliance with Medici)re
             requirements for billing outpatient surgeries. The hospital has already put contro ls in place.




             Corrective Action Plan:

             The following are the c0ntrols 'Hazel Hawkins Memorial Hospital has put hi_place'.on February 2013 to
             monitor correct units billed for all outpatient surgical procedures:

                 1.). The hospital Is having the third party vender flag all outpatient surgery claims with a 360
                     revenue code greater than 1 unit.                    ·                              ·
                 2,) The units on the outpatient surgery claim will be reviewed for correct units before the claim is
                     billed to Medkare.                               ·               ·
                 3.) The hospital will·do·or;tgoing internal audits to make sure that all outpatient surgery claims are
                     billed-with the correct units.                                      ··

             .If you have any questions regarding our response please contact me at 831-636-2626 or ~-mail me at
              ktempleton@hazethawkins.com.




             Kristen Templeton,
             Director ot'Patient Accounting
             Hazel Hawkins Memorial Hospital




             CC: Mark Robinson, CFO, Hazel Hawkins Memoria l Hospital




Outpatient Surgeries Billed by Hazel Hawkins Jvfemorial Hospital (A-09-13-02053)                                          8
